                             Office of Inspector General
                            Corporation for National and
                                     Community Service




             AUDIT OF THE
     CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
        NATIONAL SERVICE TRUST
   SCHEDULE OF FISCAL 2009 BUDGETARY
      RESOURCES AND OBLIGATIONS

           Audit Report Number 10- 02




                     Prepared by:

             CLIFTON GUNDERSON LLP
                11710 Beltsville Drive
              Calverton, Maryland 20705




This report was issued to Corporation management on November 13, 2009.
                           OFFICE OF INSPECTOR GENERAL

                                      November 13, 2009


TO:            Nicola Goren
               Acting Chief Executive Officer


FROM:          Kenneth Bach /s/
               Acting Inspector General


SUBJECT:       Audit of the Corporation for National and Community Service’s
               Fiscal Year 2009 National Service Trust Schedules
               OIG Audit Report 10-02

Attached is the Independent Auditor’s Report on the Fiscal Year 2009 National Service Trust
Schedule of Financial Position, and the related schedules of Operations and Changes in Net
Position, Budgetary Resources and Trust Obligations (Schedules). We contracted with the
independent certified public accounting firm of Clifton Gunderson LLP to audit the financial
statements of the Corporation as of September 30, 2009 and 2008, and for the years then
ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards.

In its audit, Clifton Gunderson found that the Schedules present fairly, in all material respects,
the financial position of the Corporation’s National Service Trust Fund for the fiscal year ended
September 30, 2009.

Clifton Gunderson is responsible for the attached auditor’s report, dated November 10, 2009,
and the conclusion expressed therein. The Office of Inspector General does not express an
opinion on the Schedules.

Attachment

cc:     William Anderson, Acting Chief Financial Officer
        Frank Trinity, General Counsel
        Kristin McSwain, Chief of Program Operations
        Rocco Gaudio, Deputy CFO for Planning and Program Management
        Mary Cadagin, Chief Information Officer
        Bridgette Roy, Audit Liaison and Administrative Assistant
        Bill Oliver, Engagement Partner, Clifton Gunderson LLP (without attachment)




                1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
           Certified Public Accountants & Consultants




                                                Independent Auditor's Report


To the Board of Directors
 and Inspector General
Corporation for National and Community Service


We have audited the accompanying Schedule of Financial Position of the Corporation for
National and Community Service (Corporation) National Service Trust Fund as of September
30, 2009 and 2008, and the related Schedules of Operations and Changes in Net Position,
Budgetary Resources and Trust Obligations for the years then ended. These schedules are the
responsibility of Corporation management. Our responsibility is to express an opinion on these
schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the schedules are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the schedules. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall
schedule presentation. We believe that our audits provide a reasonable basis for our opinion.

The accompanying schedules were prepared for the purpose of complying with provisions of the
Strengthen AmeriCorps Program Act (Public Law 108-45), as discussed in Note A, and is not
intended to be a presentation in conformity with accounting principles generally accepted in the
United States of America.

In our opinion, the schedules referred to above present fairly, in all material respects, the
financial position of the Corporation's National Service Trust Fund as of September 30, 2009
and 2008, and the results of its operations and changes in net position, budgetary resources,
and obligations for the years then ended in conformity with the basis of accounting described in
Note A.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 10, 2009, on our consideration of the Corporation's internal control over financial
reporting and on our tests of its compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, not to provide an
opinion on internal control over financial reporting or compliance. Those reports are an integral
part of our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.
1171 0 Be!t.fI)i!!e Drive, JIIIJe 300
Caimton, kID 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                                   1
                                                                                           International
www.ciiftoncpa.com                              Offices in 17 states and \Vashington, DC
This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, GAO, OMS and Congress, and is not intended to be and should
not be used by anyone other than these specified parties.




Calverton, Maryland
November 10, 2009




                                               2
      Fiscal Year 2009 and 2008
National Service Trust Fund Schedules
                               NATIONAL SERVICE TRUST FUND


                             SCHEDULE OF FINANCIAL POSITION
                                          as of September 30
                                        (dollars in thousands)

                                                                            2009                2008
Assets
 Trust Flmd Balance with Treasury                                     $          452        $        227
 Investments, carrying value                                                 515,733             479,634
 Investment and interest receivable                                             4,105              4,246
 Accounts receivable                                                             350                   31
Total Assets                                                          $      520,640        $    484,138


Liabilities
 Service Award Liability                                              $      324,067        $    303,367


Net Position
   Cumulative Results of Operations                                          196,573             180,771


Total Liabilities and Net Position                                    $      520,640        $    484,138




                The accompanying notes are an integral part of these financial schedules.

                                                    1
                                NATIONAL SERVICE TRUST FUND


               SCHEDULE OF OPERATIONS AND CHANGES IN NET POSITION
                                 For the Period Ending September 30
                                         (dollars in thousands)

                                                                             2009                2008
Revenues
 Appropriations                                                        $      171,075        $    122,539
 Transfer in of Program Ftmds                                                    3,857             16,246
 Interest                                                                       12,236             17,804
 Other                                                                              326
Total Revenues                                                                187,494             156,589


Expenses
 AmeriCorps Program                                                           (171,662)          (160,790)
 Service Learning Program
 (Writeoff) / Recovery of Receivables                                              (30)                23
Total Expenses                                                                (171,692)          (160,767)


Excess of Revenues Over Expenses                                       $       15,802        $     (4,178)



Net Position
 Excess of Revenues Over Expenses                                      $        15,802       $     (4,178)
 Net Position, Beginning of Year                                              180,771             184,949
Net Position, End of Year                                              $      196,573        $    180,771




                 The accompanying notes are an integral part of these financial schedules.

                                                     2
                               NATIONAL SERVICE TRUST FUND


                            SCHEDULE OF TRUST OBLIGATIONS
                                         as of September 30
                                       (dollars in thousands)

                                                                           2009                2008
Resources
 Trust Flmd Balance with Treasury                                     $           452      $          227
 Investments, carrying value                                                515,733             479,634
 Investment and interest receivable                                            4,105              4,246
 Accounts receivable                                                            350                  31
    Sub-total                                                               520,640             484,138
 Less investments and receivables not available for obligation               (13,833)            (8,792)
 Less Trust Reserve                                                          (50,197)           (46,697)
Total Resources                                                      $      456,610        $    428,649



Unliquidated Obligations
 President's Freedom Scholarships                                    $        (1,035)      $       (772)
 Education Awards                                                           (424,571)          (402,261)
 Interest Forbearance                                                        (18)29)            (16)67)
Total Unliquidated Obligations                                              (443,735)          (419,200)

Commitments
  Education Awards                                                                                    (570)
  Interest Forbearance                                                                                 (31)
Total Commitments                                                                                     (601)

Total Budgetary Uses                                                 $      (443,735)      $   (419,801)




Funds Available for Obligation at September 30                       $       12,875        $      8,848




               The accompanying notes are an integral part of these financial schedules.

                                                   3
                              NATIONAL SERVICE TRUST FUND


                       SCHEDULE OF TRUST BUDGETARY RESOURCES
                                         as of September 30
                                       (dollars in thousands)

                                                                           2009                2008

Flmds Available for Obligation, beginning of year                    $         8,848       $      6,727


Budgetary Resources
  Appropria tions
     Appropriation Received in Trust (net of rescissions)                   171,075             122,539
     Transfers in of Program Flmds                                             3,857             16,246
        Subtotal                                                            174,932             138,785
     Deobligation of Member Positions                                          3,617              1,399
  Less: Trust Reserve                                                         (3,500)


Total Budgetary Resources                                            $      183,897        $    146,911



Obligations
  Education Awards                                                   $      (164,763)      $   (133,804)
  Interest Forbearance                                                        (6,860)            (5,677)
  President's Freedom Scholarships
Total Obligations                                                           (171,623)          (139,481)


Net Change in Commitments
  Education Awards                                                                570             1,346
  Interest Forbearance                                                             31                72
Total Commitments                                                                 601             1,418


Total Budgetary Uses                                                 $      (171,022)      $   (138,063)



Funds Available for Obligation, end of year                          $       12,875        $      8,848




               The accompanying notes are an integral part of these financial schedules.

                                                   4
NOTES TO THE TRUST FUND SCHEDULES

A. Basis of Accounting
The Schedules of Financial Position; Operations and Changes in Net Position; Trust
Obligations; and Trust Budgetary Resources have been prepared from the books and records
of the Corporation in accordance with the Strengthen AmeriCorps Program Act (Public Law
108-45,42 USC § 12605) for the periods commencing October 1 and ending September 30,2009
and 2008, respectively.

The activities of the Trust are funded through the annual Departments of Labor, Health and
Human Services, and Education, and Related Agencies Appropriations Act, which funds
National and Community Service Act programs. Appropriations are provided on a no-year
basis for the Trust, a fund within the Corporation used to provide education awards and
student loan interest forbearance to eligible participants. Trust appropriations do not expire
with the passage of time and are retained by the Corporation in the Trust until used for eligible
purposes.

The Trust provides awards for AmeriCorps members serving in approved national service
positions under AmeriCorps State and National, AmeriCorps NCCC, and AmeriCorps VISTA,
as well as for the AmeriCorps Education A ward Program, where sponsoring organizations are
responsible for providing member subsistence and other costs, and the Corporation provides
an education award and a small amount for administrative costs.

Funds from the Trust may be expended for the purpose of providing an education award or
student loan interest forbearance payment and must always be paid directly to a qualified
institution (college, university, or other approved educational institution, or a lending
institution holding an existing student loan) as deSignated by the participant. The Trust may
also expend funds for payments under the President's Freedom Scholarship Program as
authorized under various Corporation appropriations through fiscal 2006.

The recognition of budgetary accounting transactions is essential for compliance with legal
controls over the use of Federal funds. Budgetary accounting principles are designed to
recognize the obligation of funds upon the establishment of a properly documented legal
liability, which in many cases is different from the occurrence of an accrual-based transaction.

The Strengthen AmeriCorps Program Act directs that, beginning with fiscal 2003, Trust
obligations be recorded at the time the Corporation: (1) enters into an enforceable agreement
with an individual participant to serve in a program carried out under subtitle E of title I of the
National and Community Service Act of 1990 (42 USC § 12611 et seq.), or title I of the Domestic
Volunteer Service Act of 1973 (42 USC § 4951 et seq.); or (2) awards a grant to (or enters into a
contract or cooperative agreement with) an entity to carry out a program for which such a
position may be approved under section 123 of the Act (42 USC § 12573). The Strengthen
AmeriCorps Program Act also directs that the obligational amount be based on the estimated
value of the education benefit, discounted for the estimated enrollment, earning and usage
rates, and the time value of money.




                                                 5
NOTES TO THE TRUST FUND SCHEDULES - CONTINUED

In fiscal 2009 the Corporation used the following assumptions to calculate Trust obligations
and budgetary needs: full value of the education award, 100 percent enrollment rate, and
earning and usage rates averaging approximately 80 percent. Programs have up to two years
after award to enroll members in positions. Funds related to positions awarded to programs
but not filled are periodically deobligated and become available for award for new program
activities. The Corporation deobligated $3.617 and $1.399 million in fiscal 2009 and 2008,
respectively, related to unfilled positions.

B. Trust Appropriations
For fiscal year 2009, the National Service Trust received $131.075 million under the Omnibus
Appropriations Act, 2009 (Public Law 111-8) and an additional $40.000 million under the
American Recovery and Reinvestment Act of 2009 (Public Law 111-5). For fiscal year 2008 the
National Service Trust received $122.539 million under the Consolidated Appropriations Act,
2008 (Public Law 110-161). The Acts also authorized the Corporation to transfer additional
amounts from subtitle C program funds to the National Service Trust if necessary to support
the activities of national service participants. The Corporation transferred $3.857 million and
$16.246 million to the Trust under this provision in fiscal year 2009 and 2008, respectively.
C. Trust Reserve

As required by the Strengthen AmeriCorps Program Act the Corporation sets aside in reserve a
portion of the funds appropriated to the Trust in the event that its estimates used to calculate
obligational amounts for education awards prove to be too low. The Corporation added
$3.500 million to the reserve in fiscal year 2009 for Recovery Act positions. No funds were
added to the reserve in fiscal year 2008. The total amount held in reserve under this provision
was $50.197 and $46.697 million as of September 30, 2009 and 2008, respectively.
D. Trust Awards
Since the Corporation's inception in 1994, AmeriCorps members have earned over $1.746
billion in education awards. The Corporation has made $1.184 billion in payments to
educational institutions and student loan holders on these awards. In addition, the
Corporation has made $42.232 million in interest forbearance payments since the program's
inception. Approximately $164.750 million in education awards earned had expired without
being used as of September 30, 2009. The Trust obligation formula has been adjusted to reflect
these expired awards. Payments for President's Freedom Scholarships have totaled $21.491
million.




                                               6
              APPENDIX

CORPORATION'S RESPONSE TO DRAFT REPORT
                                    NATIONAL&:
                                    COMMUNITY
                                    SERVICEtuL


MEMORANDUM

Date:      November 12, 2009

To:

From:
           Ken Bach, Acting Inspector General
                                                     w~
           William Anderson, Acting Chief Financial Officer
                                                                        tZ£rYI
Subject:   Draft Report on the Audit of the Corporation's Fiscal Year 2009 National Service
           Trust Schedules


Thank you for the opportunity to comment on the draft report on the audit of the Corporation's
fiscal 2009 National Service Trust Schedules. Fiscal Year 2009 marks the seventh year that the
schedules have received an unqualified opinion. Executing sound financial stewardship of the
Corporation's resources is an essential element for achieving our mission of improving lives,
strengthening communities, and fostering civic engagement through service and volunteering.
While we are proud of these audit results, we recognize that the work before us is challenging
and we need to continue to improve our operations if we are to achieve the expansion envisioned
by the Edward M. Kennedy Serve America Act. To that end, we will continue our work with the
Corporation's Office oflnspector General and its financial auditors to identify areas where
efficiencies can be made and internal controls improved.

The Corporation would also like to express its appreciation for the hard work your staff and the
staff of Clifton Gunderson made on the 2009 audit. Without this collaborative effort we would
not have been able to achieve the tight deadline for completing the audit.
